No.

20-5297
IN THE

SUPREME COURT OF THE UNITED STATES

foEMflgfUS

BgiPqgS

— PETITIONER

supre

(Your Name)

JUL 2 7
VS.

P&9R& oPTTte 3W OF UWl'oiS — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

■SUflfeMff Coxuar
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Bl2lb^€S
(Your Name)

Bov looo

7II KflSkfiSkld

(Address)

znums
(City, State, Zip Code)

uk
(Phone Number)

yizSR

Sj-

2020
clerk

QUESTION(S) PRESENTED

f. H?vo CeuA4 pefhorver pIre pare a. CAYwplefe defuse if f-O C^l(ini'
Coh.-fr0h:f anyone who accused biiv\?
2 Can un confroTit^4 '^shmomo4. hearsay be wsed(.secure
admissitfn aV +ri«l of offer un&nfrwifecl terhnnomal hearsay!?
3, Di<* fhe sUe -ftdl te prove ^ Pef,timer ■ftr fe/ i~*edl tus
n^hb iv conWonf^ti^in?

uesh<m “2) Ca)t\ una;rvfr<mfe4. fesfimtfntA/l h^et/^y of arv
adrvus’siofn oir +xa4
avou l ah! e vvifnes.? be Hs-ed +n s-eckje^e
of
kA can-fed nhed^ tesA vn©n.i al heaxstvy from. en wrtqv/cul~
able vvi'iA-CS'S?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
|PfAll parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

oe zax/MoiS

Appeflccfe,
Codt-

oduof

r<sd-

. (^dXli-Cacjo)

TABLETOFCONTENTS
OPINIONS BELOW

1

JURISDICTION

Z

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

5

STATEMENT OF THE CASE....................................................
.REASONS FOR GRANTING THE
CONCLUSION.......................

Yl

INDEX TO APPENDICES
APPENDIX A

Appellate Caxr[ vf Illinois’ (firs! Jxsfmf)

appendix b

Decision

APPENDIX C

Cook 6ooh+y Circuih CcurV (Chlca^ \l)

APPENDIX D

'Tcvble of QM+boKt-Hes aM. s-hdu-es ancA rute

APPENDIX E
APPENDIX F

‘S-fcd-e ^U|>rem-e Covr{

t>eny*^ Review

TABLE OF AUTHORITIES CITFn
3\

CASES

3

PAGE NUMBER

fappQJToLrz - E

:^r

;

STATUTES AND RULES

See

p&nzhK- E
m

m

at

;

OTHER

:

■\

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
J or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix —Q— to the petition and is
[ ] reported at
; or,
[ j has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the M^lWe CquA OT zHUUQiS- ft^St O&Ki'cT court
appears at Appendix _A
to the petition and is

/VPftendW " A
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ 1 A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
; and a ™py nf ffro
order -denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
TdatoVnn
_ (date)
in Application No.__ ,A_____
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1)

For cases from state courts:
The date on which the highest state court decided my case was U'M \ Z.O\°\
A copy of that decision appears at Appendix C^ A timely petition for rehearing was thereafter denied on the following date:,
-fcnUQrV (3> 2jQlft
and a copy of the order denying rehearing
appears at Appendix D’
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date)
on _
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

<■ Z)

CONSTITUTIONAL AND STATUTORY-PROVISIONS INVOLVED

L
‘

2 Dech'ran#~J2St3y//j"

LOi’^y (-'cqjj-^20i*/

S

/4dmtss(bilffc) o=^ p&KSi^me^
colffiej? tAjiiaci, Q!^s&nop
CxjctS'

- •j-s.-

W,

fey

Ci^\cujcd /oJdIo

(jorc

CXf^ 2^7. LlflCiUCt\\ CLiofcl

59’p bcrcM^ ,

Luro^oe^cib^y

3

STATEMENT OF FACTS
Demarius Bridges was charged with inter alia, first degree murder of Keith
Slugg, and attempt murder and aggravated battery of Kim Harris, stemming from
a shooting that occurred on August 28, 2011. (C. 67-81) A jury found Demarius
guilty on all counts, and the trial court sentenced Demarius to 55 years for murder,
and to 35 years for attempt murder. (R. TT196, W38-39)
Background and pre-trial events
The following narrative draws upon the information adduced at pre-trial
proceedings by grand jury testimony, exhibits, filings and statements by the parties.
On August 27, 2011, Kim Harris gave herself a party for her 25th birthday. (R.
SS183) Her boyfriend, Keith Slugg, attended the party, and returned to the party
site later that evening to give Harris a ride home. (R. SS185-86; C. 238,240) Slugg
drove Harris to a residential housing area near Roosevelt, Maxwell and Blue Island,
then backed into a parking space by the Newberry Recreational Center. (R. SS18687; C. 240) Harris and Slugg began to have intercourse, with Harris facing the
back window of the car. (R. SS189; C. 120-21,240) After a couple of minutes, Harris
heard gunshots, turned her head, and saw “fire” from a gun muzzle. (R. SS190;
C. 241) She looked in the direction of the fire and saw a person firing a gun into
the car. (R. SS191; C. 240) Harris felt a gunshot in her leg, and threw herself into
the passenger seat foot well, but her foot was pinned between Slugg’s stomach
and the steering wheel. (C. 107-08,240-41) Harris remained in that position. (C.
108, 241) She heard the gunshots stop, then start up again, this time sounding
a little different, as if from a different gun. (R. SS196-97) By this time, Slugg had
slumped over and was unresponsive. (R. SS198; C. 108) When the shooting stopped,
Harris honked the horn of the car repeatedly until the police arrived. (R. SS199-200;
3
(u)

C. 238, 241)
Harris made several statements identifying the shooter that she saw as
“Debo.” Harris said that Debo’s real name was Demarius. Specifically, Harris
made such statements to:
(1) the responding officers on the scene of the shooting (C. 109, 123);
(2) the responding paramedics, on the scene and en route to the hospital
(C. 109, 111, 123);
(3) a Chicago Police Department sergeant and detective who interviewed
her as she was being taken into surgery that night (C. 109, 111, 123);
(4) two Chicago police detectives, on August 30, 2011, when Harris made
an identification from a photo array while still at the hospital (C. 110,123);
(5) another detective and an assistant State’s attorney (ASA) on August
31, 2011, when Harris made an identification from a photo array while
still at the hospital (C. 110, 123);
(6) an ASA in an interview on September 7,2011, while still at the hospital
(C. 110);
(7) an ASA in a videotaped statement on September 7, 2011, with two
detectives and a family friend present, while still at the hospital, when
Harris again identified Demarius’s photo as the shooter (C. 110, 123);
(8) an ASA in a pre-grand jury interview on October 4, 2011 (C. 110); and
(9) the grand jury, on October 4, 2011. (C. 110, 123)
Slugg died on the scene as a result of his gunshot injuries. (C. 58) Harris
survived the shooting. (C. 95-97) She sustained a number of gunshot wounds,
and was hospitalized for over two weeks after undergoing several surgeries. (C.
95-97) She was transferred to a rehabilitation facility and eventually released.
Harris murder
Demarius was arrested and charged with attempt murder and aggravated
battery of Harris and first degree murder of Slugg. (C. 68-79) While Demarius
was in jail awaiting trial, Kim Harris was shot to death in April 2012. In September
4
f 5)

2012, Demarius was charged, along with Terry Bridges and Terrell Lewis, with
Harris’s murder. (C. 180) The State elected on the Harris murder. (R. T2-6) Demarius
was tried before the bench and acquitted in January 2013. (C. 180)
Forfeiture by wrongdoing
The State initially moved to introduce Harris’s first three statements as
dying declarations, excited utterances, and/or as statements made in the course
of an ongoing emergency. (C. 107-17) Thereafter, following Demarius’s acquittal,
the State withdrew its motion to admit Harris’s statements, and filed another
motion, adding a forfeiture by wrongdoing argument as to each of her statements.
(C. 168-91, 220-24)
Per the State’s proffer at the hearing on its motion (R. LL2-23), Harris sought
advice from her cousin, Conley English, because Terry Bridges (Terry), Demarius’s
brother, had offered her money to not testify at Demarius’s trial. (R. LL16) English
agreed to act as a liaison with Terry, and met with Terry and Terrell Lewis on
April 15, 2012. (R. LL16) Terry wanted to see Harris in person before paying the
money. (R. LL16) English drove Harris to the agreed-upon location, and got out
of the car, leaving Harris behind. (R. LL16-17) Lewis got out of Terry’s car and
approached the car where Harris sat, and shot her numerous times, killing her.
(R. LL17) Lewis got back into the car with Terry and drove away. (R. LL17)
The State cited the following circumstantial evidence to support this proffer:
Terry’s jail visits to Demarius in the days before and after the Harris murder
(R. LL18);
visits from Lewis to Demarius in jail in the days before the Harris murder
(R. LL18);
phone calls between Terry and Lewis, and phone calls from each of them
to English on the day of the shooting (R. LL17);

5

cell site towers data reflecting that Terry and Lewis were in the vicinity
of the Harris murder at the time of the shooting (R. LL17); and
video footage showing that Terry’s car was driven toward the scene of the
Harris murder, and showing a man running toward and getting into the
car after shooting, and the car driving away. (R. LL17-18)
In addition, firearm evidence recovered from the scene and from Harris’s
body showed she was killed by a single firearm, while the Harris/Slugg shooting
involved at least three firearms. (R. LL18-19) One day after the Harris murder,
a gun was recovered from a rooftop near the scene of that shooting. (R. LL18-19)
This gun had been purchased by Terry Bridges in 2007, and forensic evidence
established that it was the gun used in the April murder of Harris. (R. LL19) This
same gun was one of the guns used in the August shooting of Slugg and Harris.
(R. LL19)
Terry and Lewis were brought to the police station and interrogated. (R.
LL19) Terry made statements implicating Demarius in the Harris murder. (R.
LL19-20) The State acknowledged that Terry’s statements were not admissible
against Demarius at the bench trial in which he was charged with Harris’s murder,
but asserted that Terry’s statements were admissible at the forfeiture hearing.
(R. LL20)
According to Terry’s statements, Demarius arranged through Terry to have
Harris killed because she was the only witness against him in the August 2011
shooting. (R. LL20-21) Terry claimed that Demarius knew a person who would
kill Harris. Demarius purportedly instructed Terry to pay the person to kill Harris,
but not to get involved in the actual shooting. (R. LL21-22) Terry told police that
he paid Terrell Lewis a certain amount of money before the shooting; he told Lewis
he would pay the remainder after Terry received his tax return. (R. LL21) The

6

(rrJ

Bridges believed that without Harris, the charges against Demarius would be
dropped. (R. LL21-22) Terry also toldpolice that he believed that Demarius would
pay Lewis, once he was released from jail. (R. LL21-22)
The trial court determined that the first three statements by Harris (to
the responding police officers, to the emergency personnel, and to the sergeant
at the hospital, as she was being taken into surgery) in which she identified
Demarius as the shooter, were admissible as dying declarations, excited utterances
and as statements made in the course of an ongoing emergency. (R. NN7-16) The
court further found that the State had established by a preponderance of the evidence
that Demarius acted to procure the absence of Harris, making all her statements
of identification admissible at trial under the forfeiture by wrongdoing doctrine.
(R. NN17-25)
Jury Trial
Harris’s statements of identification
The State presented the testimony of Officer Garza, who, along with his
partner, was the first officer to respond to the shooting. (R. RR22-53) When Garza
arrived, he heard a horn honking repeatedly, and saw a car backed into a parking
spot by the Newberry Recreational Center. (R. RR25) The car had bullet holes
on the sides and there were shell casings on the ground around the car. (R. RR27-28)
Keith Slugg was slumped in the driver’s seat, not moving, and Kim Harris was
lying across the front seat with her feet in Slugg’s lap and her head down in the
passenger side wheel well. (R. RR29-30) She was naked with only a shirt to cover
her; she was bloody and had gun shot wounds. (R. RR30) Harris was screaming
and using her foot to honk the horn. (R. RR30)
Harris told Garza that she could not breathe. (R. RR31) According to Garza,
7

Harris was coherent, alert, and able to communicate, though she had a number
of injuries. (R. RR32) Garza asked her what had happened and Harris said she
had been shot. (R. RR31) While his partner called for an ambulance, Garza asked
Harris who had shot her. (R. RR31) Harris said “Debo” shot her, and when Garza
asked for a first name, Harris responded it was Demarius. (R. RR31-32) He said
that Harris told him more than 20 times that “Debo” or Demarius shot her. (R.
RR34)
On cross-examination, Garza acknowledged that the lights on the neighboring
property were about 300 feet away, and that the car was parked in a position where
it was not under any lights. (R. RR59-60) Garza agreed that the exhibits reflect
that the area where Slugg had parked the car was dark, and that one of the lights
in the area was not on at the time. (R. RR60-61)
Paramedic Katrina Basic arrived soon after. (R. RR63-65) Basic described
the lighting in the area as a “gray haze” and said it was dim, but that one could
see. (R. RR68) There was a black car with bullet holes and casings on the ground.
(R. RR66) Basic began treating Harris, and counted 14 bullet holes in her; Harris
was covered in blood. (R. RR67) The paramedics used a backboard to get Harris
out of the car, thinking that was the safest way to move her. (R. RR68) Slugg
appeared to be deceased, and an autopsy later determined that he died from three
gun shot wounds. (R. SS14-17, SS19-20)
Harris could communicate, and told Basic her name, age, date of birth and
medical history. (R. RR68-69) Basic gave her oxygen to keep her breathing nonlabored. (R. RR70) Basic said that for a person who had been shot as many times
as she had, Harris was very calm. (R. RR70) Harris told Basic that Debo or Demarius
had shot her, and that she did not want to die. (R. RR71) Harris said that she
8

had a four-year old daughter that she wanted to go home to see. (R. RR71) Basic
stayed with Harris at the hospital while other medical personnel worked on her,
and Harris told them also that Debo or Demarius had shot her. (R. RR72-73) Basic
testified that detectives came to the hospital to speak with Harris, and that Harris
also told them that Debo or Demarius had shot her. (R. RR72-73)
On cross-examination, Basic explained that Harris identified Demarius
as the shooter only after Harris was in the ambulance, and then she said it twice.
(R. RR76-78) After that, Basic heard Harris identify Debo as the shooter once
to the detectives at the hospital. Basic said that Harris did not complain about
not being able to breathe. (R. RR76-78)
Sergeant Gallagher spoke to Harris at Stroger Hospital on August 28,2011
along with Detective Roxana Hopps. (R. RR80-81) They spoke to Harris as she
was on her way into surgery, at around 5:30 a.m. (R. RR81-82) According to
Gallagher, it was important to speak with her before surgery, because based on
the number of times she had been shot, she might not survive. (R. RR83) They
asked who had shot her; she said Debo. (R. RR83-84) They asked if he walked
up and shot her; she said yes. (R. RR84) They asked if Debo was from ABLA (a
housing complex in the area of the shooting); she said yes. (R. RR84) They asked
her for Debo’s real name; she said Demarius. (R. RR84)
The sergeant relayed this information to the detectives investigating the
case. (R. RR85) The police arrested Demarius Bridges on September 7, 2011, at
2615 S. Prairie, about three miles from ABLA Homes. (R. RR85)
Detective Egan created a six-man photo array which included a photograph
of Demarius, and took it to Stroger Hospital on August 30, 2011, two days after
the shooting. (R. RR98-99) Harris was in serious but stable condition, and her
9

( l °J

sister, Kourtnay Harris, was there for the interview. (R. RR100-01) Harris described
the shooting as she had done in the past, and identified Debo as the shooter. (R.
RR101) Harris read the line-up advisory form and Kourtnay signed it for her because
her injuries prevented Harris from being able to do so. (R. RR105) Harris identified
the photograph of Demarius from the array; Kourtnay circled and signed his
photograph for her. (R. RR106-08; State Exh. 13)
Detective Kennedy, Detective Moreth, and ASA Chevlin interviewed Harris
at Stroger hospital on August 31,2011. (R. RR134-35) Kennedy testified that during
this interview Harris related that she had known Slugg for three years, and had
been dating him for about a year and a half. (R. RR138) On August 27, 2011, Harris
had been celebrating her birthday. (R. RR139) Slugg picked her up around 3 a.m.,
and they drove to the Newberry Recreational Center. (R. RR139) Slugg reversed
the car into the last spot on the parking lot, and rolled down the windows. (R.
RR140-41) Harris took off her clothes and got on top of Slugg, with one foot on
either side of his waistline, and facing the back of the car, so that she and Slugg
were face-to-face. (R. RR141-42)
The two had intercourse for about five minutes. (R. RR142) Then Harris
heard a gunshot, and saw fire coming out of the end of a gun barrel. (R. RR142)
She immediately looked in the direction of the shots, and saw a person she recognized
as Debo or Demarius standing four to five feet away, pointing a gun at them and
shooting. (R. RR143) She looked at him for a couple of seconds, then heard more
gunfire and felt pain. (R. RR144) She thought she had been shot, and threw herself
into the front passenger seat of the car. (R. RR144-45) Her foot got stuck between
Slugg’s stomach and the steering wheel. (R. RR145) Harris heard more gunshots,
numerous gunshots, all in close range. (R. RR145) She heard Slugg say, “Are you
10

(u)

for real?” and “That’s it.” (R. RR145) After the gunshots stopped, Harris used her
foot to honk the horn until the police arrived. (R. RR146)
Harris told Kennedy she had known Debo since she was 15 years old, and
knew that he attended Crane High School with her cousin. (R. RR146-47) She
knew his mother lived in the Barbara Jean Wright housing facility and still did,
close to where the shooting took place. (R. RR146-47) Kennedy showed Harris
a single photograph of Demarius, the same photo she had selected from the photo
array. (R. RR147-48, 150) When she saw the photo, Harris told Kennedy it was
Debo, the shooter. (R. RR149) Kennedy said on cross-examination that Harris
did not say when she last saw Demarius before the shooting. (R. RR152)
ASA Coakley interviewed Harris at Stroger Hospital on September 7,2011,
where Harris was in the ICU. (R. RR156) Also present were two detectives as
well as Madeline Crenshaw, the grandmother of Harris’s daughter. (R. RR157)
Harris described the shooting and identified Demarius as the shooter, and agreed
to give a videotaped statement. (R. RR157-58)
The State published the videotaped statement to the jury over a defense
objection. (R. RR161, RR166; State Exh. 17)
In the videotape, Harris recounted the testimony previously admitted via
other State witnesses: she had a party; she left with Slugg; they drove to the
Newberry Recreational Center and parked; they began to have sex; Harris first
saw “fire” and heard a gun shot, then looked over to see the shooter; Harris identified
Demarius as the shooter, and Debo as his nickname. (R. RR167-68; State Exh.
17)
ASA Toni Giancola testified that she met with Harris on October 4, 2011,
for a pre-grand jury interview. (R. SS173-74) Harris was in a rehabilitation facility
11
(\%)

at the time, recovering from her injuries. (R. SS175) Harris was transported to
Branch 66 in a van that could accommodate her wheelchair, and she traveled
with a nurse. (R. SS174-75)
Harris described the shooting, identified the shooter to Giancola as Demarius,
and identified a photo of Demarius. (R. SS176) Harris watched the videotaped
interview she had given, determined there were no corrections to be made, and
agreed to testify before the grand jury. (R. SS177-78) Giancola published the
transcript of Harris’s grand jury testimony to the jury over the defense objection.
(R. SS182-219; State Exh. 153) The grand jury testimony mirrored the statements
Harris made to various persons previously presented to the jury. (R. SS182-219;
State Exh. 153)
Physical evidence
The police collected shell casings and fired bullets from inside and outside
the car, as well as one bullet which struck a wall inside a nearby residence. (R.
SS37-38, SS44-52, SS54) Specifically, the police recovered eighteen 40-caliber
shell casings, as well as eleven 9-mm Luger shell casings, including three recovered
from the passenger seat, plus fired bullets and metal fragments of bullets. (R.
SS69-77) The 40-caliber shell casings were fired from a single firearm (R. SS144-45),
and the 9-mm Lugar casings were fired from a different single firearm. (R. SS145-46)
The examination of the bullet fragments indicated that a third firearm, a .38-caliber,
was also used in the shooting. (R. SS148)
Sergeant Brian Holy testified that on April 16,2012, an anonymous source
informed him of the location of a gun. (R. SS89-91) Holy went to the location, an
alley between Taylor and Arthington, and found a 9-mm handgun on the rooftop
of a single-story garage. (R. SS91, SS94-95) The handgun was a Smith and Wesson
12

OV

Model 5926, with serial number TFA 8908. (R. SS100-01, SS101; State Exhs. 143,
144; State Exh. 24) Ballistics testing established that this 9-mm had been used
in the August 28, 2011, shooting. (R. SS151-52, SS155-56) The recovered gun had
fired the eleven cartridges recovered from the scene, and two ofthe recovered bullets.
(R. SS155-56, SS166)DNA swabs of the gun revealed no humanDNA. (R.TT11-12)
William Anderson Van Scyoc testified that he owned a gun shop in
Bloomington, Illinois. (R. SS109) In March 2007, Terry Bridges purchased a 9-mm
Smith and Wesson Model 5926, serial number TFA 8908. (R. SS115-116, SS116-17,
SS120-22) Van Scyoc identified State Exh. 24 as the handgun he sold to Terry
Bridges. (R. SS123)
The forensic investigator also recovered five possible latent fingerprints
from the car. (R. SS39) Two of these possible latents were not suitable for
comparison, and the remaining three, when compared to prints from Demarius,
did not reveal an identification. (R. TT10-11) There were no suitable prints on
any of the discharged casings. (R. TT10-11)
Defense witnesses
Jonell Reed testified that she was currently living in ABLA homes, near
where the shooting took place. (R. TT17) She had grown up there, and Demarius
had grown up in the nearby Barbara Jean Wright (“BJW’) Homes. (R. TT21) This
area was known as “The Village.” (R. TT21) Reed was Demarius’s girlfriend in
August 2011. (R. TT14) They had been together since 2008. (R. TT18) She lived
with Demarius in an apartment on Indiana; they had lived in the apartment since
March 2011, and in an apartment on Fulton before that. (R. TT14) On August
27, 2011, Reed worked then returned to the apartment and began cooking for a
friend’s mother’s birthday. (R. TT15) She called Demarius at his mother’s house
13

(IHJ

to tell him to come home. (R. TT15) She went to sleep, then he came home and
woke her up. (R. TT15) She warmed up his food, then he went to sleep, and she
went back to bed shortly afterwards. (R. TT15-16)
Reed’s sister called at around 4 a.m. and told her that Keith had been killed.
(R. TT16-17)The State’s hearsay objection was sustained. (R. TT16-17) Reed passed
the information to Demarius, who was sleeping next to her. (R. TT16) Reed knew
Slugg and Harris from the area, but was not on speaking terms with either. (R.
TT17)
According to Reed, Demarius associated with some people from the Village
and people knew of him, but she met only a few friends of his while they were
dating, and never heard anyone call him by the nickname Debo. (R. TT27-28)
Reed explained that she knew of Slugg and Harris, because they were also from
the area, and it was a fairly small community. (R. TT29) In contrast, Demarius
was not from ABLA and did not really have friends there. (R. TT28) She did not
know if Demarius knew Harris or Slugg, and when she told him that Slugg had
been killed, he did not appear to know who she meant. (R. TT30-31)
Reed knew Terry, Demarius’s brother. (R. TT33) Terry was taller and older
than Demarius, but Reed would not say he was “fat,” and did not know how much
Terry or Demarius weighed. (R. TT32-33)
Reed had been driven to court for her testimony by Demarius’s mother,
but she denied having ever discussed her testimony with his mother. (R. TT35)
Reed had visited Demarius regularly in jail, and had spoken to him on the phone
while he was in jail. (R. TT36-38, TT42-43)
Reed was arrested with Demarius when he was arrested, but she did not
know until later that he had been charged with the murder of Slugg. (R. TT45-46,
14

60

TT48) The police did not question Reed when she was arrested. (R. TT47) Reed
was with Demarius at the time that Slugg was killed. (R. TT44) Reed had never
told anyone this information, until she spoke to his attorney approximately one
week before her trial testimony. (R. TT44) She did not tell anyone in his family
or her own, and did not tell her friends. (R. TT45)
Sharnetta Dodson, Demarius’s mother, had three sons: Terry Bridges,
Demarius Bridges and Richard Carter. (R. TT50) Dodson testified that Demarius
and Terry were very similar in appearance. (R. TT53-55) Terry was a little taller,
but they were similar in complexion and facial features, and both always kept
a “low” hairstyle. (R. TT53-54) Dodson explained that people always mistook them
for one another, and they used to play a game in which Terry would pretend to
be Demarius and vice versa. (R. TT54-55) Dodson identified two photographs from
Sears portrait studio, taken in 2006, one of Terry and the other of Demarius. (R.
TT52-53, TT55; Def. Exhs. 7, 8) Dodson said that they had not changed in
appearance since the time the pictures were taken ten years earlier. (R. TT55)
On cross-examination, Dodson described the living arrangements she had
with her sons. (R. TT58-59) Dodson said that Demarius grew up “On the complex;”
he went to elementary and grammar school there, and had moved out of her home
by the time he went to high school. (R. TT58-59) She said Demarius had a couple
of friends in the neighborhood, but not really any associates, because “we’re not
from that area.” (R. TT60-61) Demarius and Terry had lived together in the past,
were close and had a good relationship. (R. TT59-60) She knew that Terry had
a FOID card, but did not know he had purchased a 9-mm handgun. (R. TT60)
Dodson visited Demarius in j ail once a week, and spoke to him on the phone
at least once a week. (R. TT61-63) Dodson knew Reed, and had driven to court
15
(lie)

with her on the day of their testimony, but had not talked to Reed about her
testimony. (R. TT64-65) Sometimes when Demarius would call Dodson, she would
put through a three-way call to Reed, then put the phone down to allow them
privacy. (R. TT65) Dodson did not know whether that practice was permitted.
(R. TT65)
Dodson said she had spoken to Reed about a week or two earlier, when Reed
called her and said that the State’s Attorney had come to her house and asked
her a lot of questions, then driven Reed to work. (R. TT66) Dodson also saw Reed
once at the jail when their paths crossed in visiting Demarius. (R. TT66)
The State impeached Dodson with recordings from recorded jail conversations
between Demarius and herself, about three weeks before trial, in which Demarius
asked Dodson whether she had spoken with Reed, and Dodson replied that she
had, and that she was going to give Reed’s phone number to Demarius’s defense
attorney. (R. TT68-70, TT75) Dodson admitted that she spoke to Reed about coming
in to testify, but denied talking to her about being an alibi witness. (R. TT71-72)
Dodson knew that Reed would come in to testify, and told Demarius that “she
[Reed] was good to go,” but Dodson only meant that Reed was going to be a witness.
(R. TT72-75) As for the photos of Terry and Demarius, Dodson said she had
“somewhat recently” given them to the defense attorney. (R. TT79)
Demarius Bridges testified that in August 2011, he was living with Reed
at 2701 S. Indiana. (R. TT84) Demarius knew Kimberly Harris to say hello to,
from seeing her at different events, like a basketball game or a party. (R. TT86)
Before August 27, 2011, he had not seen Harris for five or six years. (R. TT88)
Demarius knew of Keith Slugg, but saw him rarely, only in passing. (R. TT87-88)
Demarius did not think that Slugg lived in the area, and it had been perhaps even
16

(<V

■__]

longer since Demarius had seen Slugg than the five years since he had seen Harris.
(R. TT87-88)
On August 27,2011, Demarius was at his mother’s house in the early evening
from 8:00 to 11: 00 p.m., watching television, because he and Reed did not have
cable. (R. TT89-90) Demarius left around 11:00 p.m., arriving at his apartment
around 11:45 or 12:00 midnight. (R. TT90) He argued with Reed, because he had
been out late, then he ate some food that she prepared for him. (R. TT91) They
relaxed together, and Demarius was home all night. (R. TT91) Demarius went
to bed between 2:45 and 3:00 a.m., and later learned from Reed that Slugg had
been killed. (R. TT91) Demarius shook his head and went back to sleep. (R. TT91)
Demarius denied shooting and injuring Harris, and denied shooting and killing
Slugg. (R. TT92)
On cross-examination, Demarius said that his brother, Terry, was taller
and heavier. (R. TT92-93) Demarius agreed that they did not look exactly alike;
he said that many people have told him that they look alike, though he “did not
see it.” (R. TT94) Demarius knew that Terry had a gun, though not specifically
that he had a 9-mm. (R. TT111)
Demarius was living in the B JW Court with his mother when he met Reed
in 2008. (R. TT94-95) Reed was living in ABLA homes at the time. (R. TT94-95)
The B JW was within walking distance of the Newberry Recreation Center, but
Demarius had never seen the back of the center. (R. TT95-96) Demarius knew
some people from ABLA, including Reed, but denied hanging out in the area. (R.
TT96-97) Demarius agreed that some people called him Debo, and that Harris
would have known that. (R. TT111)

17

QS

Verdict and sentencing
The jury returned guilty verdicts for all charges, including the finding that
Demarius personally discharged a firearm as to murder and attempt murder.
(R. TT196) The court sentenced Demarius to 55 years for murder and a consecutive
term of 35 years for attempt murder. (R. W38-39)

18
(\c(j

\

REASONS FOR GRANTING THE PETITION

kfetifer -the Ijhnms XXpteme (Court, nor the 1/1*5. Supreme <5oumf
has addressed whether ck defendants’ sixTh amendmenf richf to
(WV^n-Kw applies: af a f&vfcifur-e by Wf^rg doing hearing, This
CcjutIt needs 'to guide the lower couftv regard ibc th-e scope op
ferfertur-e by wnsngcMng hearings. Specifically, XUi/Ws coeurtr
need guidwe cm. whether teshir^iaX ^ansay ^i^ments- of
avrulqMes witf\£ss; wHigT wo?uA ck ofher w(5e Wo/laf-e a defender
figWr ‘{o CdY^facrobcitim, ar~e exdmlsstbl-e ai a, ferfeifere by vuKb-hg
domg hearing. Xn cfhw words; whether some fesfimohtcd hearsay
3on be used to SecuT-e* the admissieTj aP Pnctj of other 'testi mon
nears ay. l/Ohile no XU i nets couth has Sf-eciPicolly addressed. hkiis
ssue. Th eire is case law which 5kgg-es‘ks tkoef Hoe ngth to danfr^ntaf
an does apply «h UvFs 'hype ch hearing. Mbre over rev-era| ouT afijuns
hcfxoin cc^Aeps1 haA/e addressed vohe th-er the right to eanfre/rdcof toyi appl lei
tf a. -trial evidentiary becainc and Fonhd tMr tike the sixth amendment
tgKf-to counsel Wut. same «ppli.er -fe confi-arvtefen. feWi<5n.«r Is ^cuesfme
™* 1ft* its. Sufrerv* Court- pwife gu,dance 1b Hie, XL Wr oXtr<w.
line,
it hcw> forfeiture by wfchgydoing hearings- skoUd be ^nducfecl AcAcXess
whether a ckfehdaKU ngkb to canprantohcm apphes ah a. prefect evideMw
earing tMr CW impact the mtcorne 9b tf-e fri'af amUs a critical stug-e
f km pro C^ed/ngr, The trial and. app-ellafc -s-fete court in XU mod erran^mS rulings tr\ thi-s case need tr> be correctccf and guidance must be
enr to Hoe courts so tbcdr erroneous- ndm^ of ferf^h/ir-e by wrungdfu
nd denying the- sixt-h amenclm-^nh rght -to crnfewfchi^r) uiould n<d be"
dne "tu future defendants- like it was done in this case. There ruiingx
-entad ffu peto/h oner 3 right to conjfWnf any witness' against- turn which
> re vented kino frorn presenting ^ c*mpl-ehe defence

(ao)

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

S^mnc&arn

hud

Date:

rvi)

